                                           NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: I061 10040                                                           Page 1 of 1



     We initiated an investigation after receiving allegations that a graduate student' may have
     violated the conditions of a NSF foreign exchange program by leaving the program
     several weeks prior to the official ending of the program then provided false information
     about his return date. The graduate student had received the NSF fellowship2,which
     provided funds3 for travel, expenses and summer stipend to participate in the foreign
     exchange program. The NSF program office was notified that the student did not attend
     the end of the program and requested a response from the student. The student provided
     unclear information about his return date and the reasons for the early departure. The
     NSF Program Office referred the matter to us for investigation.

     When interviewed for our investigation, the graduate student admitted that he did attend
     the first 4 weeks of the program and conducted research with his foreign sponsors which
     resulted in two publications. However the student also admitted that he left the program
     three weeks early without receiving appropriate approvals, and later provided inaccurate
     information about his return date to the NSF Program Office. The student wrote a check4
     to NSF for the portion of expenses and stipend that the student received for the three
     weeks he did not participate in the program. The student also apologized to the NSF
     program staff for his actions and promised "that it will never happen again."

     Accordingly, this case is dosed.
